         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Special Report
Special Inquiry on the Office of the
Chief Financial Officer's Information
Technology Expenditures




OAS-RA-L-12-01                     November 2011
                                  Department of Energy
                                     Washington, DC 20585

                                        November 28, 2011

MEMORANDUM FOR THE DEPUTY SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on "Inquiry on the Office of the
                         Chief Financial Officer's Information Technology Expenditures"

INTRODUCTION

The Office of the Chief Financial Officer (OCFO) is responsible for ensuring the effective
management and financial integrity of Department of Energy programs, projects, and resources.
To achieve its mission, the OCFO develops, implements, and monitors policies and systems
related to areas such as budget administration, program analysis, and strategic planning. The
Office of Program Analysis and Evaluation (PA&E), within the OCFO, provides independent
analysis and advice to the Secretary regarding planning, execution, measurement, and evaluation
of the Department's programs and activities. PA&E is also responsible for formulating and
managing the Department's strategic planning efforts and ensuring that resources are allocated
effectively and meet programmatic goals.

On April 13, 2011, the Office of Inspector General (OIG) received a complaint through the OIG
Hotline alleging the waste of appropriated Fiscal Year (FY) 2010 and American Recovery and
Reinvestment Act of 2009 (Recovery Act) funds by senior officials within the OCFO. In
particular, the complainant stated that PA&E had mismanaged over $6 million worth of software
contracts and related user licenses.

RESULTS OF INQUIRY

To address the allegations outlined in the complaint, we conducted a targeted review of the
OCFO's application acquisition and implementation efforts as they related to the specific systems
discussed in the complaint. During our review, we interviewed 18 officials within the OCFO
and other program offices. We also analyzed documentation related to contracts, energy
modeling applications, software licenses, and information technology expenditures within the
OCFO.

Our review did not identify material issues or sufficient evidence to support the allegations
concerning PA&E's management of software contracts and licenses. However, we did find that
the software in question was costly and, that in some cases, it was not as useful or productive as
expected. We also identified areas where the Department could improve its efforts to plan for
and acquire software. Specific allegations and our findings in each area are discussed in detail in
the remainder of the report.
                                Market Allocation Model

The complainant alleged that the OCFO purchased an "inferior and duplicative" Market
Allocation Modeling Effort (MarkAl), at a cost of approximately $2.4 million in contract
expenses and Federal salaries/benefits, without completing a project plan, conducting an
external review, obtaining qualified staff, and performing proper analysis. The complaint
also indicated that PA&E planned to use the MarkAl software to identify costs and
benefits of future or alternative energy investment scenarios as part of its annual budget
development process.

Based on our review, we found that the MarkAl software was utilized by PA&E as one
component of the budget process to better inform officials that make budget resource
allocation decisions. While PA&E was able to provide documentation for approximately
$530,000 in software and contractor support costs since the beginning of 2010, the costs
did not include Federal labor that was expended on implementation of the project because
Federal employee salaries and benefits were not tracked by PA&E. Therefore, we were
unable to substantiate the complainant's assertion that $2.4 million was spent on MarkAl.
As best we could determine, none of the funds used to support MarkAl were obtained
through the Recovery Act.

Based on our review, we determined that the version of MarkAl used by PA&E was not
duplicative of other modeling efforts performed by program offices. In particular, PA&E
and program offices utilized the MarkAl software for different purposes and scenarios,
and, therefore, the end results differed. In addition, we were informed by PA&E and
program officials that similar tools used by other program offices were not capable of
producing the results needed by PA&E officials. For instance, according to officials, the
National Energy Modeling System used by the Energy Information Administration was
most useful when looking at impacts of energy and environmental policies and
determining steps needed to achieve the goals of each policy over a period of 10 to 20
years. In contrast, MarkAl provided views of similar outputs over the next 40 to 45
years, generating the optimal year in which to build a technology.

Although PA&E officials involved with the MarkAl software had a broad knowledge of
program information, several program officials informed us that PA&E did not have
specific knowledge of program technologies. Specifically, programs indicated that
PA&E officials and contractors did not possess the necessary institutional program
knowledge to effectively utilize modeling tools and achieve usable results related to those
programs.

                             Multi-Attribute Decision Model

Officials with the OCFO were also alleged to have developed an unsuccessful Multi-
Attribute Decision Model (MADA), at a cost of approximately $2.1 million in contract
expenses and Federal salaries/benefits, which contained known problems and did not
have a project plan, external review, or analysis of fundamental assumptions. The
MADA effort was used by PA&E to supplement information evaluated by budget

                                            2
officials to make complex budget and investment decisions related to areas such as solar,
renewable, and nuclear energy based on investment alternatives, program objectives, and
estimates of the benefits and consequences from selected alternatives.

The MADA project was established in July 2009 by PA&E to support decisions related to
resource allocation and to analytically justify the Department's budget submission to
Congress. MADA utilized data from MarkAl, as well as other programmatic information
such as cost projections and barriers to project success. We found that expenditures for
MADA totaled approximately $785,000 in software and contractor support costs used
during the initiative. Similar to MarkAl, PA&E officials were unable to provide us with
Federal employee salaries and benefit costs attributable to the MADA project. Therefore,
we could not substantiate the allegation that $2.1 million was spent for this modeling
effort. None of the funds used to support MADA were obtained through the Recovery
Act.

Contrary to the complainant's assertion, we did not identify significant issues with project
planning prior to implementation of MADA. Specifically, PA&E officials provided us
with documentation used to support project planning efforts, including a budget decision
support analysis, portfolio analysis summary, timeline, proposed project plan, an
alternatives review, and a proposed development/implementation plan. In addition,
PA&E officials informed us that they were not aware of any known problems with the
selected software during their planning process.

Despite these project planning efforts, we noted that the MADA project was only utilized
during a one-year pilot program before officials determined that without additional
resources it could not produce reliable data to assist in budget recommendations.
Specifically, PA&E officials determined that there were issues associated with
assumptions related to future energy policies and technologies loaded in the system and
made the decision to suspend usage of the software. Officials stated that while the
assumptions were not able to support energy decisions as planned, the software could still
be utilized for energy calculations. However, we determined that the software was not
used at the time of our review.

                                Excess Software Licenses

Unneeded software licenses were also alleged to have been procured but never used.
Specifically, the complainant indicated that OCFO officials purchased licenses for
Microsoft's SharePoint software without a need or requirement at a cost of $500,000 per
year for several years. The SharePoint software was used to store large volumes of
Recovery Act data that could be accessed by officials throughout the Department.
Additionally, the complainant believed that OCFO management authorized the
procurement of multiple copies of @Risk software licenses without a clearly defined plan
for how it would be used to support tasks and duties. Similar to MarkAl, the @Risk
software was utilized by PA&E to help analyze various energy investment scenarios
when developing the Department's annual budget.



                                             3
The complainant's allegation regarding the OCFO's acquisition of excess user licenses
related to SharePoint software was partially substantiated. Specifically, in 2009, PA&E
requested that the Office of the Chief Information Officer (OCIO) purchase SharePoint
licenses using Recovery Act funds, but had not conducted an evaluation to support the
initial selection. Rather, the PA&E official with prior knowledge of the software made
the determination to procure SharePoint. In particular, when the Department's Recovery
Act work began, PA&E required a system that could manage and store the large amounts
of data being received from recipients. While the Department's iPortal system did not
have adequate capability at that time, numerous modifications have since been made and
the system currently has capabilities that duplicate those offered through SharePoint. As
a result of the iPortal capability, the OCFO's use of the SharePoint software was
discontinued after one year, and the unused licenses were reallocated by the OCIO to
other organizations within the Department. To date, the OCIO has spent $880,000 on the
licenses. We noted that the Department continued to maintain both SharePoint and
iPortal and had not performed an analysis to determine potential areas of duplication or
opportunities for consolidation.

We did not identify issues with the acquisition of @Risk software. The total cost to
acquire the software was approximately $9,000. This software was used by PA&E to
assess the probabilities of various outcomes associated with energy questions being
analyzed in the context of budget analysis options.

                             Performance Manager Module

Finally, the complainant expressed the belief that PA&E had transitioned from a fully-
developed performance measures tracking system to a more complex, expensive
Performance Manager Module (PMM) that cost $1 million and provided little additional
benefit. The PMM application was used by the Department to track performance
measures and other information pertinent to its Annual Performance Report (APR).

We did not substantiate allegations that the Department spent $1 million to acquire the
PMM, or that it provided little additional benefit. In particular, we found that the
Department did not pay any acquisition costs for PMM as it was provided by the
Department of Treasury through a Memorandum of Understanding. We determined that
annual expenditures for maintenance of PMM ranged between $98,000 and $135,000 or
$18,000 to $55,000 more than the previously used system, Joule. Furthermore, PA&E
officials stated that annual costs for the two systems were generally comparable and an
upgrade to the Joule system would have been cost-prohibitive and significantly increased
the OCFO expenditures. PA&E officials also noted that one of the significant
improvements resulting from the implementation of PMM was that it streamlined the
APR process and required less manual labor to track and report on the Department's
performance metrics.

We did substantiate that PMM was initially a more complex application, and users
indicated that supplementary steps were required to input data, creating a more



                                            4
cumbersome process. However, the application provided enhancements that included
additional features, such as a "bulk loading" of performance metrics, which alleviated
many of the initial user complaints.

SUGGESTED ACTIONS

To address the issues noted within this report and increase the overall efficiency of the
Department, we suggest that the Chief Financial Officer, in conjunction with the Chief
Information Officer and program officials, as appropriate:

      1. Examine the use of document storage applications, such as SharePoint and
         iPortal, for consolidation opportunities; and,

      2. Ensure that requirements and needs are fully analyzed prior to software
         acquisition.

Management reviewed a draft of this report and concurred with the suggested actions.
We appreciate the cooperation received from your staff during our review. Since we are
not making formal recommendations, a response is not required.

cc:    Associate Deputy Secretary
       Chief of Staff
       Acting Chief Financial Officer
       Chief Information Officer




                                              5
                                                       IG Report No. OAS-RA-L-12-01

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
